*

APPENDIX

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

AUG 6 2020
MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

DANIEL F. BORDEN, Sr.,
Petitioner-Appellant,
v.
GARY SWARTHOUT, Warden,

No.

20-15843

D.C. No. 2:14-cv-01400-MCE-DMC
Eastern District of California,
Sacramento
ORDER

Respondent-Appel 1 ee.
Before:

McKEOWN and BADE, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 10) is denied
because appellant has not shown that “jurists of reason would find it debatable
whether the petition states a valid claim of the denial of a constitutional right and
that jurists of reason would find it debatable whether the district court was correct
in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000); see also 28
U.S.C. § 2253(c)(2); Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012); Gonzalez v.
Crosby, 545~U.S. 524, 530-31 (2005); Ortiz v. Stewart, 195 F.3d 520, 520-21 (9th
Cir. 1999).
Any pending motions are denied as moot.
DENIED.

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
MAY 7 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

DANIEL F. BORDEN, Sr.,
Petitioner-Appellant,
v.

No.

20-15843

D.C. No.
2:14-cv-01400-MCE-DMC
Eastern District of California,
Sacramento

GARY SWARTHOUT, Warden,
ORDER
Respondent-Appellee.
Before: Peter L. Shaw, Appellate Commissioner.
The district court has not issued or declined to issue a certificate of
appealability in this appeal, which appears to arise from the denial of petitioner’s
motion for relief from judgment pursuant to Federal Rule of Civil Procedure 60(b).
See Lynch v. Blodgett, 999 F.2d 401, 403 (9th Cir. 1993) (certificate of probable
cause to appeal necessary to appeal denial of post-judgment motion for relief under
Rule 60(b)). Accordingly, this case is remanded to the district court for the limited
purpose of granting or denying a certificate of appealability at the court’s earliest
convenience. See 28 U.S.C. § 2253(c); Fed. R. App. P. 22(b); United States v.

J/

Asrar, 116 F.3d 1268, 1270 (9th Cir. 1997).
If the district court issues a certificate of appealability, the court should
specify which issue or issues meet the required showing. See 28 U.S.C. §
2253(c)(3); Asrar, 116 F.3d at 1270. Under Asrar, if the district court declines to
JW/Pro Se

issue a certificate, the court should state its reasons why a certificate of
appealability should not be granted, and the Clerk of the district court shall forward
to this court the record with the order denying the certificate. See Asrar, 116 F.3d
at 1270:
The Clerk shall send a copy of this order to the district court judge.

JW/Pro Se

2

4

APPENDIX

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

EASTERN DISTRICT OF CALIFORNIA

10
11

DANIEL F. BORDEN

12
13
14
15

No. 2:14-CV-01400-MCE-DMC

Plaintiff,

v.

ORDER

GARY SWARTHOUT,
Defendant.

16
17

Defendant’s Motion for Relief From Judgment (ECF No. 40) is DENIED. No

18

further filings will be entertained in this closed account and any such filings will be

19

summarily STRICKEN.

20
21

IT IS SO ORDERED.
Dated: April 21,2020

22
23

MORRISON G. EN<5LA«
UNITED STATES DISTRi

24
25
26
27
28
1

MIME-Version: 1.0 From:caed_cmecf_helpdesk@caed.uscourts.gov To:CourtMail@localhost.locaIdomain
Message-Id: Subject: Activity in Case 2:14-cv-01400-MCE-DMC (HC) Borden v. Swarthout Order on
Motion for Reconsideration. Content-Type: text/html
This is an automatic e-mail message generated by the CM./ECF system. Please DO NOT RESPOND to this
e-mail because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS*** There is no charge for viewing opinions.
U.S. District Court
Eastern District of California - Live System

Notice of Electronic Filing
The following transaction was entered on 4/21/2020 at 11:23 AM PDT and filed on 4/21/2020
(HC) Borden v. Swarthout
Case Name:
2:14—cv—01400-MC.E-PMC
Case Number:
Filer:
WARNING: CASE CLOSED on 03/31/2016
Document Number: 4£
Docket Text*

ORDER signed by Senior Judge Morrison C. England, Jr on 4/21/2020 DENYING [40] Motion
for Relief from Judgment. No further filings will be entertained in this closed account and
any such filings will be summarily STRICKEN. (Coll, A)
2:14-cv-01400-MCE-DMC Notice has been electronically mailed to:
Doris Calandra &nbsp &nbsp doris.calandra@doj.ca.gov, carolyn.allen@doj.ca.gov,
daniel.bemstein@doj.ca.gov, diane.boggess@doj.ca.gov, docketingSACAWT@doj.ca.gov,
ECFCoordinator @ doj. ca. go v
2:14-cv-01400-MCE-DMC Electronically filed documents must be served conventionally by the filer
to:
Daniel F. Borden
G-44478
CALIFORNIA STATE PRISON, SOLANO (4000)
P.O. BOX 4000
VACAVILLE, CA 95696-4000
The following document(s) are associated with this transaction:

1
2
3
4
5
6

I

7

i

8

UNITED STATES DISTRICT COURT

9

EASTERN DISTRICT OF CALIFORNIA

10

Hi

DANIEL F. BORDEN

12

No. 2:14-CV-01400-MCE-DMC

Plaintiff,

13

v.

14

ORDER

GARY SWARTHOUT,

15

Defendant.

16

18

This case is on remand from the Ninth Circuit for the limited purpose of
i
determining whether a certificate of appealability should issue. ECF No. 53. The Court

.19

hereby DECLINES to issue a certificate of appealability because Petitioner has not

'20

shown that “jurists of reason would find it debatable whether the petition states a valid

21

claim of the denial of a constitutional right and that jurists of reason would find it

22

debatable whether the [this Court] was correct in its procedural ruling.” Slack v.

23

McDaniel. 529 U.S. 473, 484 (2000); see also 28 U.S.C. § 2253(c)(2).

17

24
25

I

; IT IS SO ORDERED.
i

Dated: May 29, 2020

7

26
27

t.
MORRISON C. ENCSLAfjfD. JF
UNITED STATES DISTRICT;

28
1
I

!

!

I

I

. I

.

MIME-Version: 1.0 From:caed_cmeclLhelpdesk@caed.uscourts.gov To:CourtMail@localhost.localdomain
Message-Id: Subjec:t:Activity in Case 2:14-cv-01400-MCE-DMC (IiC) Borden v. Swarthout Order on
Motion for Certificate of Appealability. Content-Type: text/litml
This is an automatic e-mail message generated by the C'M/ECF system. Please DO NOT RESPOND to this
e-mail because the '.mail box is unattended.
NOTE TO PUB LIC ACCESS USERS*** There is no charge for viewing opinions.
I

U.S. District Court
Eastern District of California - Live System
Notice of Electro nic Filing
The following transaction was entered on 06/01/2020 at 08:37:43 AM PDT and filed on 06/01/2020

j

Case Name:
(HC) Borden v. Swarthout
Case Number:
2:14-CV-01400—MCF.-DMC
Filer:
WARNING: CASE CLOSED on 03/31/2016
'
Document Number- 55
Docket Text:
ORDER signed by Senior Judge Morrison C. England, Jr on 5/29/2020 DECLINING to issue
Certificate of Apriealability. (cc: USCA) (Zignago, K.)
2:14-cv-01400-MCE-DMC Notice has been electronically mailed to:

2:14-cv-01400-MCE-DMC Electronically filed documents must be served conventionally by the filer

j

to:

;
'

Daniel F. Borden
G-44478
CORRECTIONAL '’RAINING FACILITY (686)
P.O.BOX 686
SOLEDAD, CA 93960-0686
Doris Calandra
. California Attorney General
;|j 1300 I Street
: Sacramento, CA 95616
The following document(s) are associated with this transaction:
This is a re-general 3d NEF. Created on 6/1/2020 at 8:38 AM. PDT

UNITED STATES DISTRICT COURT
FOR THE
EASTERN DISTRICT OF CALIFORNIA
OFFICE OF THE CLERK
501 "I" Street
Sacramento, CA 95814
DANTF.TF. RORDF.N
Plaintiff
v.

CASE NO. 2:14-CV-01400-MCE-DMC

CARY SWARTHOUT
Defendant

You are hereby notified that a Notice of Appeal was filed on May 01, 2020
in the above entitled case. Enclosed is a copy of the Notice of Appeal, pursuant
to FRAP 3(d).

May 4, 2020
KEITH HOLLAND
CLERK OF COURT
by: /s/ H. Kaminski
Deputy Clerk

9
{

>

4

\\

APPENDIX

0

H

SUPREME COURT

SFP 2 5 2019
Jorge Navarrete Clerk

S256646

Deputy

IN THE SUPREME COURT OF CALIFORNIA
En Banc
In re DANIEL F. BORDEN on Habeas Corpus.
The petition for writ of habeas corpus is denied, Individual claims are denied, as
applicable. (See People v. Duvall (1995) 9 Cal.4th 464, 474 [a petition for writ of
habeas corpus must include copies of reasonably available documentary evidence]; In re
Dixon (1953) 41 Cal.2d 756, 759 [courts will not entertain habeas corpus claims that
could have been, but were not, raised on appeal]; In re Swain (1949) 34 Cal.2d 300, 304
[a petition for writ of habeas corpus must allege sufficient facts with particularity].)

CANTIL-SAKAU YE

ChiefJustice

Court of Appeal, Tim'd Appelluie l 'isirici
Andrea K. Wtillin-Rolimann, Clerk
Electronically FILED on 6/14/2019 by D. Welton. Deputy Clerk

IN THE

Conti of Appeal of tlie S>tate of California
IN AND FOR THE

THIRD APPELLATE DISTRICT

In re DANIEL F. BORDEN on Habeas Corpus.

Case No. C089533

BY THE COURT:
The petition for writ of habeas corpus is denied.

V
ROBIE, Acting P.J.

cc: See Mailing List

IN THE

Court ot appeal of tfje g>tate of Caltfornta
IN AND FOR THE
THIRD APPELLATE DISTRICT
MAILING LIST
Re:

In re DANIEL F. BORDEN on Habeas Corpus
C089533

Copies of this document have been sent by mail to the parties checked below unless they were
noticed electronically. If a party does not appear on the TrueFiling Servicing Notification and is
not checked below, service was not required.

^
/l/)
/

Daniel F. Borden
CDC #: G44478
Correctional Training Facility
P.O. Box 689
Soledad, CA 93960
Office of the State Attorney General
P.O. Box 944255
Sacramento, CA"94244-2550

w'

Daniel F. Borden, CDCR# G-44478
California Training Facility
P.0. Box 689
Soledad, CA 93960-0689
Petitioner in Propria Persona
CALIFORNIA COURT OF APPEAL
IN AND FOR THE THIRD APPELLATE DISTRICT
In the Matter of
the Application of;

) Case No.; 17HC00433
) Q7F04303
)

DANIEL F. BURDEN »
Petitioner,
v.
CRAIG KOENIG, Warden,
Respondent(s).

) PETITION FOR WRIT OF HABES CORRJS
)
)
)
)
)
)
)
)
)
)
)

COMES NOW Daniel F. Borden ("Petitioner”) herein seeking to
establish by proof and competent evidence that his Due Process rights
were violated and that he is factually innocent and illegally confined.
PROCEDURAL POSTURE
j-

Onjor about December 13, 2018, Petitioner filed a "Petition for

Complaint for Prejudice" in the Sacramento County Superior Court
alleging, among other things, substantial and fundamental error and
prejudice. Petitioner inadvertently insinuated that he presented the
claims raised herein in the appellate court prior to the filing in the
superior court.
-1-

2.

Petitioner was deprived of a reasonable opportunity to present
exculpatory evidence at his trial, and "was denied a reasonable
opportunity to prepare a proper defense when the trial court
failed to conduct a fair "or evidentiary hearing, despite a
calendared nearing set by the court,- violating his Due Process
rights protected under the state and federal Constitutions.

On March 24, 2007, Petitioner was charged in a single information
with simple battery. No amended information notifying Petitioner or
counsel of potential arson»related charges had been filed by the
district attorney prior to preliminary hearing. Thus, Petitioner had
effectively been deprived of a fair notice with respect to the arson &V &Arelated charges, and deprived of a reasonable opportunity to prepare a
defense at the preliminary hearing stage. —1/
On November 2, 2007, Petitioner was held to answer not only on the
battery charge, he was also held to answer on the arson related
charges. An amended information was then filed on November 9, 2007.
(Exhibit A1-A6.)
iPetitionerTs counseljmade contemporaneous objections at the preliminary
hearing and in the superior courts stages. Trial counsel also moved for
a continuance to acquire proof that Petitioner was at the Arden Fair
Mall (35 miles away) during the time the fire was set. Exculpatory
evidence such as: surveillance footage of Petitioner shopping during

1/

Notwithstanding the fact that Petitioner's counsel failed to
conduct any Pre-Preliminary Hearing Discovery, Petitioner asserts
that he is still Constitutionally entitled to fair notice at the
preliminary hearing stage.

the time the fire was set; and, letters written by the victim that had
been seized by way of a warrantless search - would have been acquired
by defense counsel and presented at the fostered hearing regarding
these issues. —
However, a new judge had taken over the case who wholly
impeded any further attempt by the defense to present said exculpatory
evidence. The new judge even overruled and disregarded the previously
set hearing calendared by Judge Roman- effectively denying Petitioner
a defense.
In.Uenhings v. Superior Court of Consta Costa County, 66 Cal.2d 867
(1967), Jennings is charged by complaint with illegal; possession of
narcotics and narcotics paraphernalia. At the outset of his preliminary
hearing, Jennings notified the court that he attempted to subpoena a
witness, but that the return had just been handed to him. Jennings *
witness was out on bail on a pending criminal charge and was due to
appear in court the following week. There was a very serious question
as to whether the contraband in issue had been in possession of the
witness. The court denied Jennings' request for a continuance. Jennings

2/

Notwithstanding the procedural violations with respect to the fair
notice violations mentioned at the onset, the court (Judge Roman)
calendared a hearing to hear the alibi evidence and the writings by
the victim.

then moved to set aside the information under Penal Code section 955.
Tne motion was denied and Jennings initiated the proceeding for a writ
of prohibition. The court issued the writ of prohibition because the
denial of the continuance was an abuse of discretion and limitations
placed on the cross-examination of the prosecution's witness denies
Jennings a fair hearing. The court held that the absence of a material
witness for the defense was a recognized ground for a continuance. The
court further found that the cross-examination denied was intended to
aid in establishing Jennings1 defense.
While the determination of whether in any given
case a continuance should be granted 'normally
rests in the discretion of the trial court' (People
v. Buckowski (1951) 37 Cal.2d 629, 631 [233 p.2d
912j), that discretion may not be exercised in such
a manner as to deprive the defendant of a
reasonable opportunity to prepare his defense.
'That counsel for a defendant was a right to
reasonable opportunity to prepare for a trial is a
fundamental as is the right to counsel.' (People v.
Sarazzawski (1945) 27 Gal.2d' 7, 17 [161 P.2d 934];
accord. Cooper v. Superior Court (1961) 55 Cal.2d
291, 302 [10 Cal.Rptr.' 842, 359 P.2d 274].) It is
also as fundamental as the defendant's right to be
advised of the charges against him, for the latter
right is illusory if he then is denied sufficient
time to prepare to meet such charges. (See In re
Hess (1955) 45 Cal.2d 171, 175 [288 P.2d 5], and
cases cited.) (People v. Murphy (1963) 59 Cal.2d
313, 825 j_31 Cal.Rptr. 306, 382 P.2d 346j.)
(Id.;
Here, Petitioner's rights were wholly disregarded. The
aforementioned hearing and continuance - of which a judge previously
granted - was abruptly and without explanation, overruled by the
incoming judge.
In U.S. v. Joseph, 310 F.3d 975 (7th Cir. 2002), the government
A

i 'J

'It

A-

.A*.

?'■ :

suggested that it couldn't review the evidentiary ruling because Joseph
waived his right to challenge the admissibility of the disputed
evidence by failing to object properly in the district court, and/or he
effectively withdrew his objection by later stipulating about the
mail theft.
The court looked to the question of "bad acts" and whether
certain requisites were met; (1) the evidence is directed towards a
matter in issue} (2) the prior act is similar enough and close enough
in time to the charged offense(s); (3) the jury can find from the
evidence that the defendant committed the prior act} and, (4) the
danger of unfair prejudice not substantially outweigh the probative
value of the evidence.

.

Although the court held that Joseph's mail theft conviction was
properly admitted, the court held that although counsel did not cite
Rule 404(b) explicitly at the motion-in-limine, he did say enough to
preserve that ground on appeal.
Here, Petitioner's trial counsel did more than "say enough," Judge
Roman actually calendared a hearing to hear the exculpatory evidence
discussed above (e.g., see Exhibit B1 [Correspondence to District
Attorney seeking return of seized property pursuant to Penal Code
section 1538]; Exhibits B2-B3 [Witness statements establishing
reasonable doubt with respect to identity]; and Exhibit B4 [Evidence of
police Corruption]). As such, there is no.evidence whatsoever that
Petitioner*waived his right to said calendared hearing and requisite
continuance(s).

Lastly, the failure to conduct said calendared fair or evidentiary
hearing, effectively deprived Petitioner both Jencks and Brady
material. The Jencks Act is designed to provide the defense with access
to impeachment material, and critical to analysis of alleged violation
is whether timing of the disclosures:of the materials prevented its
effective use by the defense. (U.S. v.. Brijmel-Alvarez, 976 F.2d 1235
(9fch Cir. 1992).)
Impeachment evidence, as well as exculpatory evidence, falls
within the Brady rule because such evidence is evidence favorable to
the accused. (Lambert v. Blackwell, 387 F.3d 210 (3rd Cir. 2004).)
Petitioner submits, that even with the structural error
prohibiting him from acquiring further exculpatory or impeaching
evidence, the record supports his claims that dubious state actors took
part in sabotaging his defense (evg., police officer charged with
stealing money; unwarranted seizure of $15,000, letters, etc,)*
the failure to allow Petitioner's counsel to present evidence
relating to impeachment of prosecution witnesses is deemed to be
a suppression of Brady'material. (Paradis v. Arave, 240 F.3d 1169 (9th
Cir. 2001).)

OSD

I

■ l

CONCLUSION
1

For these reasons, this Court should find that Petitioner's rights

2
3

were violated when the trial court:

(1) failed to conduct a fair or

4

evidentiary hearing previously calendared;

5

reasonable opportunity to present a defense by refusing to return

6

property listed in a warrantless illegal search - thus, denying

7

Petitioner a reasonable opportunity to present impeaching and

8

exculpatory evidence;

9
10

(2) denied Petitioner a

(3) failed to advise Petitioner of his rights;

and (4) lacked jurisdiction to pronounce judgment pursuant to section
1202 .

(5) Judge Frawley's prejudice was also evident when he made sure

11

[no] cure would be given Petitioner in Habeas Corpus 2009. When he made
12

sure only he was assigned the Post-Conviction Habeas Corpus Review "[HE
13

WAS THE SUBJECT OF]" in direct violation of Judicial misconduct (ABA
14
15
16

Code of Judicial Conduct Canon 3€ on Prejudice Violation of 14th
Amendment and Professional Standards of Bench and Bar.) Which is also

17

misconduct violation of Penal Code 859 (c). See [Fuller vs. Superior

18

Court (2004) 125 CA 4th 623, 23 CR 3d 204.) Judge Frawley denied Writ

19

of Relief. That he was the Judge and SUBJECT OF THE MISCONDUCT OF THE

20

TRIAL CASE HE PRESIDED OVER... (Jury Trial) . "While he never cared to

21

hear my motions!" (Then Judge Frawley was reassigned my case again and

22
23

denied it, "[again]," so I did a Writ of Prejudice/Mandate leading to
this new habeas corpus for justice!

24
25
26
. 27

- 1_ .r

>■

SUPERIOR COURT OF CALIFORNIA
COUNTY OF SACRAMENTO

DATE/TIME
JUDGE
REPORTER

JANUARY 4 , 2018
DAVID DE ALBA, Presiding Judge
NONE

DEPT. NO
CLERK
BAILIFF

47
NONE

PRESENT:

IN RE DANIEL BORDEN
Nature of Proceedings :

- PETITION FOR COMPLAINT FOR PREJUDICE

ORDER

The court has received from petitioner Daniel Borden a "Petition for
ronollint for Prejudice" that petitioner claims is related to Sacramento
Complaint tor
3
Nos
18hc00433 and 07F04303.
In the petition,
-OL1 complains about the denial ot relief in th.„ matters by both this court
he
and the Third District Court of Appeal.
The "Petition for Complaint for Prejudice" is not ainCOE^t *chalienqes
in this court
It contains no prayer for relief and in part challe g
actions taken by a higher court than this court, which this court may not
,rH
As such
it will not be construed as any other type of pleading
than
cognizable in this court, and the clerk of the court is hereby
DIRECTED ° to
return
the
"Petition
for
Complaint
for
Prejudice
to
petitioner.

Dated:

/

BOOK
PAGE
DATE
CASE NO.
CASE TITLE

^GflS^HonoraDle DAVID\DE ALBA, Presiding Judge,
Judge of the Superior Court of California,
County of Sacramento

47

Superior Court of California,
County of Sacramento

.

JANUARY 4, 2018
17HC00433 / 07F04303
IN RE DANIEL BORDEN

BY :

nTsmith,/__
' D ep'u ty/ Clerk

Page 1 of 2

H

ZIPATW

*

V
•V

>

%%

APPENDIX "T>

Additional material
from this filing is
available in the
Clerk's Office.

